HHS/OIG, Audit -"Audit of the Pension Plan at a Terminated Medicare Contractor, Horizon Blue Cross Blue Shield of New Jersey,"(A-07-02-03028)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Horizon Blue Cross Blue Shield of New Jersey," (A-07-02-03028)
March 11, 2004
Complete
Text of Report is available in PDF format (1.06 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Horizon was a Medicare contractor until its contract was
terminated in 2000.  Because Medicare contracts specifically prohibit contractors from profiting from Medicare activities,
pension gains which exist when a Medicare segment closes must be credited back to the program.  Accordingly, we
recommended that Horizon remit $3,812,504 in excess pension assets to the Medicare program.